                      SPECTO
                 IN            R
             F                     G
         O                             E
     E




                                       N
     C




                                           E
 FI




                                           RA
OF




                                               L
                                                   OFFICE OF INSPECTOR GENERAL
                                                       EXPORT-IMPORT BANK
                                                        of the UNITED STATES




Ex-Im Bank’s Sponsored Travel
 Improvements Made but Opportunities Exist to
Fully Comply with the Federal Travel Regulation




                                                                       April 23, 2014
                                                                       OIG-AR-14-05
To:         David Sena
            Senior Vice President and Chief Financial Officer

            Michael Cushing
            Senior Vice President, Resource Management

            Angela Mariana Freyre
            Senior Vice President and General Counsel

From:       Arturo Cornejo AC
            Acting Assistant Inspector General for Audits

Subject:    Audit of Export-Import Bank’s Controls Over Sponsored Travel,
            Report No. OIG-AR-14-05

Date:       April 23, 2014

Attached please find the final report of our audit of Export-Import Bank’s controls
over sponsored travel. The report contains three recommendations for corrective
action. In response to a draft of the report, management concurred with the
recommendations. Management’s response is included as an appendix to the final
report.

We consider management’s proposed actions to be responsive. The
recommendations will be closed upon completion and verification of the proposed
actions.

We appreciate the courtesies and cooperation extended to us during the audit. If
you have questions, please contact me at (202) 565-3499 or
arturo.cornejo@exim.gov.


cc:     Fred Hochberg, Chairman and President
        C.J. Hall, Executive Vice President and Chief Risk Officer
        Maria Fleetwood, Director
        Nathalie Herman, Vice President and Treasurer
        Andrea Bernardo, Assistant General Counsel
        Inci Tonguch-Murray, Business Compliance Officer
        Cristopolis Dieguez, Business Compliance Analyst




                   811 Vermont Avenue, NW Washington, D.C. 20571
                         EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


             The Export-Import Bank of the United States (Ex-Im Bank)
             is the official export-credit agency of the United States.
             Ex-Im Bank is an independent, self-sustaining executive
             agency and a wholly-owned U.S. government corporation.
             Ex-Im Bank’s mission is to support jobs in the United States
             by facilitating the export of U.S. goods and services. Ex-Im
             Bank provides competitive export financing and ensures a
             level playing field for U.S. exports in the global
             marketplace.

             The Office of Inspector General, an independent office
             within Ex-Im Bank, was statutorily created in 2002 and
             organized in 2007. The mission of the Ex-Im Bank Office of
             Inspector General is to conduct and supervise audits,
             investigations, inspections, and evaluations related to
             agency programs and operations; provide leadership and
             coordination as well as recommend policies that will
             promote economy, efficiency, and effectiveness in such
             programs and operations; and prevent and detect fraud,
             waste, abuse, and mismanagement.



ACRONYMS
AAA                          Administrative Accounting Activities
Ex-Im Bank or the Bank       Export-Import Bank of the United States
FAS-t                        Forms Automation System for travel
FTR                          Federal Travel Regulation
OAS                          Office of Administration and Security
OCFO                         Office of the Chief Financial Officer
OCIO                         Office of the Chief Information Officer
OGC                          Office of the General Counsel
OGE                          United States Office of Government Ethics
OIG                          Office of the Inspector General
PAS                          Program and Accounting Servicing
SF                           Standard Form
SVP                          Senior Vice President




                                    AUDIT REPORT OIG-AR-14-05
                                 EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Executive Summary                                  Ex-Im Bank’s Sponsored Travel
                                                   Improvements Made but Opportunities Exist to
                                                   Fully Comply with the Federal Travel Regulation
                                                   Audit Report OIG-AR-14-05
                                                   April 23, 2014

Why We Did This Audit                        What We Found
We performed this audit, in part, to         We found that improvements are still needed in order for Ex-Im Bank to
follow-up on recommendations                 fully comply with the FTR requirement to submit travel vouchers within
provided by the Office of Inspector          five work days after completion of a trip. From a statistical sample of
General in a previous audit report           sponsored “transactional” trips from January 2011 to April 2013, we
issued on June 4, 2010, “Sponsored           projected that employees submitted travel vouchers late for more than
Transactional Travel.” The report            half of the population (199 of 343 total trips or 58 percent). We also
addressed needed improvements in             found that one Ex-Im Bank employee submitted travel vouchers late for
Export-Import Bank of the United             13 out of 14 sponsored transactional trips reviewed, and the employee
States’ (Ex-Im Bank or the Bank)             submitted two of those travel vouchers 260 calendar days or more after
policies and procedures for obtaining        the required submission date. In addition, OAS, responsible for evaluating
travel expense reimbursement from            policies, plans, and procedures related to employee travel, did not
sponsors and travel voucher submission       establish or implement effective procedures to monitor compliance with
from employees. We performed the             the FTR. This occurred because Ex-Im Bank did not establish a policy that
audit to evaluate the policies and           clearly identified roles, responsibilities, and accountability of individual
procedures used to govern the                travelers, supervisors, and OAS. As a result, we projected that more than
sponsored travel policy over the             half of all sponsored transactional trips were not in compliance with
acceptance, approval, and collection of      travel regulations related to timely submission of vouchers.
payments from non-federal sources. We
also evaluated Ex-Im Bank’s compliance       We also found that improvements are needed to ensure that Ex-Im Bank
with the Federal Travel Regulation           reports to the Office of Government Ethics all payments over $250
(FTR) pertaining to sponsored travel.        received from non-federal sources for sponsored “conference” trips, as
                                             required by FTR. We found that Ex-Im Bank did not report 15 percent or
What We Recommended                          nine out of 60 sponsored conference trips from March 2011 to March
To provide reasonable assurance that         2013. This occurred because the Office of General Counsel did not
the Bank complies with the FTR, the          establish strong internal controls to ensure that the data it used to
Bank should: (1) establish effective         determine required reportable payments was complete and accurate. As
control activities over submission of        a result, Ex-Im Bank did not comply with FTR’s requirement to report
sponsored travel vouchers, to include        complete and accurate payments received from non-federal sources for
clearly identifying the roles,               sponsored conference travel and the public was denied complete
responsibilities, and accountability of      information over the payments Ex-Im Bank received from non-federal
individual travelers, supervisors, Senior    sources.
Vice Presidents, and the Office of
Administration and Security (OAS); and       Despite the improvements needed to fully comply with FTR, we obtained
provide training to Ex-Im Bank               reasonable assurance that Ex-Im Bank established adequate controls over
employees over the roles,                    some aspects of the sponsored travel program as required by the Code of
responsibilities, and accountability of      Federal Regulations and FTR. From a statistical sample of 31 sponsored
individuals and OAS; (2) establish           transactional travel requests and a statistical sample of 25 sponsored
reporting procedures over sponsored          conference travel requests, we found that Ex-Im Bank employees
travel that allow for information to be      submitted all relevant documentation and officials properly followed
communicated timely; and (3) establish       procedures to accept sponsored travel requests. In addition, from our
mechanisms to obtain specific,               review of the statistical sample of 31 sponsored transactional trips, we
measurable, and reliable data in order       found that Ex-Im Bank properly billed and collected reimbursement for all
to ensure that Office of General Counsel     trips that required a bill to be sent to the sponsor.
reports all required payments received
from non-federal sources, including          For additional information, contact the Office of the Inspector General at
verification and reconciliation of data.     (202) 565-3908 or visit www.exim.gov/oig.

                                              AUDIT REPORT OIG-AR-14-05
                                                             i
                    EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




TABLE OF CONTENTS


INTRODUCTION
   Background_________________________________________________________ 1
   Objectives__________________________________________________________ 6

RESULTS
  Lack of Controls over Sponsored Travel Vouchers Resulted in Non-compliance with
     the Federal Travel Regulation and Ex-Im Bank’s Travel Policy_______________ 7
     Recommendations, Management’s Response, and Evaluation of
     Management’s Response___________________________________________ 13
  Ex-Im Bank Did Not Report Nine Sponsored Conference Payments totaling
     $16,159 to the Office of Government Ethics____________________________ 15
     Recommendations, Management’s Response, and Evaluation of
     Management’s Response___________________________________________ 19
  Ex-Im Bank Complied with Regulations over Procedures to Accept Payments from
     Non-Federal Sources for Sponsored Travel_____________________________ 20

  Follow-up Audit Results on Prior Recommendations ________________________ 24

APPENDIX A
  Scope and Methodology ______________________________________________ 27
  Review of Internal Controls____________________________________________ 28
  Federal Laws, Regulations, Policies, and Guidance _________________________ 29
  Prior Coverage______________________________________________________ 29

APPENDIX B
  Ex-Im Bank’s Approval Process for Sponsored Travel Authorizations ___________ 30

APPENDIX C
  Ex-Im Bank’s Travel Request Form Using FAS-t ___________________________ 31

APPENDIX D
  Ex-Im Bank’s Billing and Collection Process _______________________________ 32


                              AUDIT REPORT OIG-AR-14-05
                                           ii
                   EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


APPENDIX E
  Form EXB-2011-1, “Request for Reimbursement of Actual Expenses” __________ 33

APPENDIX F
  OGC Reporting Process to OGE for Sponsored Conference Payments___________ 34

APPENDIX G
  Management Comments______________________________________________ 35




                             AUDIT REPORT OIG-AR-14-05
                                          iii
                              EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL



                                                                                   INTRODUCTION


Background
  On June 4, 2010, the Office of Inspector General (OIG) issued an audit report – “Sponsored
  Transactional Travel,”1 – that addressed needed improvements in Export-Import Bank of
  the United States’ (Ex-Im Bank or the Bank) policies and procedures for obtaining travel
  expense reimbursement from sponsors and travel voucher submission from employees.
  The report made three recommendations for corrective action and management concurred
  with the recommendations. However, between November 2012 and April 2013, the OIG
  received information indicating that corrective actions were either never fully
  implemented or were ineffective. For example, a limited review of travel vouchers
  submitted by Ex-Im Bank employees indicated that employees may be waiting as long as
  nine months to submit travel vouchers, which is not compliant with the Federal Travel
  Regulation (FTR) and delays the Bank’s ability to bill related sponsors. Additionally, a
  review of the regulations pertaining to sponsored travel and Ex-Im Bank’s travel policy as
  well as preliminary meetings with officials from the Office of Administrative and Security
  (OAS), Office of General Counsel (OGC), and Office of the Chief Financial Officer (OCFO),
  indicated that additional improvements in the Bank’s controls over its approval,
  acceptance, and collection of payments from non-federal sources for travel and related
  expenses may be needed.

  Applicable laws and regulations. Ex-Im Bank received payments for travel related
  expenses from non-federal sources for two types of travel: sponsored transactional travel
  and sponsored conference travel. Pursuant to regulations established at 12 Code of Federal
  Regulations (CFR) 412, Ex-Im Bank may accept reimbursement for travel and subsistence
  expenses incurred as a result of employee attendance at meetings or similar events that are
  directly related to the mission of the Bank. A meeting is defined as a “formal gathering, site
  visit, negotiation session or similar event that takes place away from the employee’s official
  station and which is directly related to the mission of Ex-Im Bank” (herein referred to as
  sponsored transactional travel).2

  Under the authority of the FTR and 31 U.S. Code (U.S.C.) 1353, federal agencies may accept
  payment of travel expenses from non-federal sources for official travel to a meeting.3 FTR
  defines a meeting as a “conference, seminar, speaking engagement, symposium, training
  course, or similar event that takes place away from the employee’s official station”(herein
  referred to as sponsored conference travel). A meeting as defined in this chapter “does not
  include a meeting or other event required to carry out an agency’s statutory or regulatory



  1
    “Sponsored Transactional Travel” (Export-Import Bank OIG/OIG-AR-10-04, June 2010).
  2
    12 C.F.R. § 412.3(c)(3), “Acceptance of Payment from a non-Federal Source,” January 1, 2005.
  3
    See FTR, 41 C.F.R. § 304-1.2.


                                         AUDIT REPORT OIG-AR-14-05
                                      505050505
                                                        1
                           EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


functions (i.e., a function that is essential to an agency’s mission) such as investigations,
inspections, audits, site visits, negotiations or litigation.”4

Ex-Im Bank Travel Policy. Ex-Im Bank’s travel policy states that “the Bank’s Charter
authorizes the Bank to accept funds paid or reimbursed, or payment-in-kind, from a Non-
Federal Entity for staff travel to attend a conference, meeting, or event directly related to
its mission.” Further, Ex-Im Bank’s travel policy states that an Ex-Im Bank employee may
not solicit payment for travel related expenses from a non-federal source; and the
divisional Senior Vice President (SVP) and appropriate Bank ethics official must give
approval before the employee may confirm attendance.

Key Ex-Im Bank divisions responsible for sponsored transactional and conference
travel. Three Ex-Im Bank divisions are responsible for the approval, acceptance, billing,
and collection of payments for sponsored transactional and conference travel.

       OAS verifies that sponsored travel applications are completed correctly and
        necessary funds are available for the trip prior to approval.5 In addition, OAS
        establishes policies and procedures for Ex-Im Bank employee’s travel.

       OGC reviews and approves sponsored travel applications after determining whether
        conflicts of interest exist. OGC also reports sponsored conference travel payments
        received from non-federal Sources to the United States Office of Government Ethics
        (OGE) semiannually.6

       OCFO pays the traveler after vouchers are submitted for sponsored travel after
        completion of a trip; issues a bill to sponsors for the travel expenses that the
        sponsor agreed to reimburse and where paid for upfront by the Bank; and collects
        reimbursement from the sponsor for travel expenses incurred.

Approving and accepting employee travel requests for sponsored conference and
transactional travel. The approval and acceptance process for sponsored conference and
transactional travel is the same. Ex-Im Bank may accept an unsolicited payment from a
non-federal source for travel expenses only after being approved and accepted by the
appropriate Ex-Im Bank officials. The approval process is performed using the Bank’s
electronic travel system – Forms Automation System for travel (FAS-t). The approval and
acceptance process is explained below. An illustration describing Ex-Im Bank’s approval
and acceptance process is included in Appendix B.




4
  See FTR, 41 C.F.R. § 304-2.1.
5
  For reimbursable travel expenses offered by sponsors, Ex-Im Bank initially pays the employee’s travel
expenses after an employee completes a sponsored trip and submits a travel voucher. Once the employee is
paid from Ex-Im Bank’s funds, Ex-Im Bank bills the sponsor for the reimbursable travel expenses. Ex-Im Bank
does not initially pay for sponsored travel expenses that are paid by the sponsor in advance or in-kind.
6
  As required by FTR, 41 C.F.R. § 304-6.4.


                                      AUDIT REPORT OIG-AR-14-05
                                   505050505
                                                    2
                       EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


   1. The employee receives a non-solicited invitation from a non-federal source to
      attend a meeting for a mission-related (sponsored transactional) or non-mission
      related (sponsored conference) purpose at the sponsor’s expense. The sponsor may
      agree to pay all travel expenses or only part of the travel expenses. Further, the
      sponsor has the option to pay in advance, pay in-kind, or request Ex-Im Bank to bill
      the sponsor for reimbursement after the trip is completed.

   2. The employee completes a travel request application in FAS-t. The employee
      indicates the type of travel (whether for sponsored transactional or conference
      purposes), provides relevant information, and uploads pertinent documents used
      for the approving and accepting officials to make a decision for authorization. An
      example of the travel request form for sponsored transactional travel is included in
      Appendix C. A travel request form for sponsored conference travel contains the
      same information.

   3. Once the employee completes the travel request application, FAS-t notifies OAS that
      a travel request is pending. An OAS Travel Specialist reviews and verifies all
      information entered by the traveler. Then, an OAS Budget Specialist determines
      whether funds are available within the requesting employee’s department budget.
      If funds are available, an OAS Budget Specialist commits/obligates funds from the
      Division’s budget and approves the application in FAS-t.

   4. FAS-t notifies the SVP of the employee’s division that the travel request application
      is ready for review. The SVP reviews the application details and approves the trip,
      after determination.

   5. FAS-t notifies OGC (the agency’s designated ethics official) that the travel request
      application is ready for review. OGC reviews the travel request application details
      to determine whether a conflict of interest exists. Additionally, OGC reviews the
      application to determine whether the sponsored trip was solicited. If there are no
      issues, OGC approves the travel request application.

   6. FAS-t notifies the OAS Director that the application is ready for final review. The
      director reviews all approvals and supporting documentation contained in the
      application to ensure completeness. The OAS Director makes the final approval.

   7. The employee’s travel request application for sponsored travel has been accepted
      and approved. The employee can accept payment for travel expenses from the non-
      federal sponsor.

Billing sponsors and collecting reimbursement for sponsored transactional and
conference travel. The billing and collection process for sponsored conference and
transactional travel is the same. Sponsors offering payment of travel expenses agree to
either reimburse Ex-Im Bank for travel expenses, pay for sponsored travel expenses in
advance, or pay travel expenses in-kind. For reimbursable sponsored travel, Ex-Im Bank
begins the billing and collection process after an employee completes a sponsored trip and
submits a travel voucher for the sponsored travel expenses. Ex-Im Bank does not bill the

                                 AUDIT REPORT OIG-AR-14-05
                              505050505
                                              3
                       EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


sponsor until the travel voucher is submitted by the employee. Unlike the approval
process, billing and collecting reimbursement from sponsors for travel related expenses is
performed manually. The billing and collection process is explained below. An illustration
describing Ex-Im Bank’s billing and collection process is included in Appendix D.

   1. A traveler completes a sponsored trip. (Per the FTR and Ex-Im Bank Travel Policy,
      employees must submit a travel voucher within five work days after completion of a
      trip.)

   2. The employee prepares all receipts and pertinent documents to support the travel
      voucher. The employee should verify all sponsor details and amounts that should
      be billed to the sponsor. After the travel voucher and supporting documentation is
      prepared, the employee manually submits the travel voucher and supporting
      documents to the employee’s immediate supervisor for approval.

   3. The employee’s immediate supervisor reviews all documents and approves the
      travel voucher. The travel voucher and supporting documents are manually
      delivered to OAS.

   4. An OAS Travel Specialist reviews the travel voucher and supporting documentation
      and makes any necessary adjustments. If the actual sponsored travel expenses were
      more or less than the estimated expenses, the specialist adjusts the amount that was
      obligated to the traveler’s division during the approval process. OAS then enters an
      approved invoice amount into the Administrative Accounting Activities’ (AAA)
      System and manually or electronically delivers the travel voucher and supporting
      documents to a payment certifier in the OCFO.

   5. The OCFO Certifier approves the travel voucher and prints a payment voucher for
      the employee to be paid the full invoice amount.

   6. Cash Control officials then pay the traveler. For sponsored travel expenses that are
      reimbursed by the sponsor, Ex-Im Bank pays the traveler first from Ex-Im Bank
      funds. Cash Control officials deliver the travel voucher and supporting
      documentation to the Program and Accounting Servicing (PAS) division within
      OCFO to prepare bills to sponsors. PAS also monitors bills that need to be prepared
      by reviewing the “Unbilled Receivables Report” from AAA. The report identifies
      sponsored travel expenses that have been paid to the traveler out of Ex-Im Funds
      but have not been billed for reimbursement from the sponsors.

   7. Once the traveler is paid and PAS receives the paid travel voucher and supporting
      documentation, a PAS Official verifies the amount that was paid from the travel
      vouchers and verifies the amounts that sponsors should be billed. If the PAS Official
      is not certain about the amount to be billed, the official will contact OAS and the
      traveler to confirm the correct amount. Once confirmed, the PAS Official sends the
      sponsor a bill and supporting documentation via email.



                                 AUDIT REPORT OIG-AR-14-05
                              505050505
                                              4
                                EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


       8. The PAS Official will continue collection efforts from the sponsor until the bill is paid
          or six months have elapsed.

               a. If the bill is paid, OCFO will receive and apply payment. Obligated funds
                  within the traveler’s division will be offset.

               b. If payment is not received within six months, OCFO will write-off the
                  receivable and charge the traveler’s division to an administrative expense.

               c. If payment is not received in full, OCFO will either continue billing efforts, or
                  charge the traveler’s division to an administrative expense.

       9. The PAS Official monitors bills that have not been paid by the sponsors on a bi-
          weekly basis and resends bills to the sponsor until the bill is paid. In addition, OCFO
          sends a “Sponsor Travel Due by Division” monthly report to divisions where
          employees had an outstanding bill from a sponsor. The “Sponsor Travel Due by
          Division” report allows employees an opportunity to personally contact sponsor.

Reporting sponsored conference travel payments to OGE for payments received over
$250 from non-federal sponsors. The FTR requires agencies to submit Standard Form
(SF) 326, “Semiannual Report of Payments Accepted from a Non-Federal Source” to report
payments received from non-federal sources over $250 for sponsored conference
payments.7 Specifically, FTR requires federal agencies to:

       (a) “Submit the Standard Form 326 no later than May 31 for payments received from
           the preceding October 1 through March 31”; and

       (b) “Submit the Standard Form 326 no later than November 30 for payments received
           from the preceding April 1 through September 30.”

OGC performs this requirement by performing the following procedures. An illustration
describing OGC’s reporting process is included in Appendix F.

       1. OGC requests all sponsored conference travel requests authorized for the reporting
           period from the Office of the Chief Information Officer (OCIO).

       2. OCIO queries all sponsored conference authorizations from information maintained
           in the FAS-t for the requested period and provides a list of the information to OGC.

       3. OGC receives the list of sponsored conference authorizations and identifies all
           sponsored conference payments over $250. OGC does not verify or reconcile
           information to any other source to confirm completeness of the data provided by
           OCIO.



7
    See FTR, 41 C.F.R. § 304-6.4.


                                          AUDIT REPORT OIG-AR-14-05
                                       505050505
                                                       5
                               EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


        4. OGC contacts all employees on the list of sponsored conference authorizations over
            $250 to gather an itemization of payments received, such as travel expenses paid for
            hotel, flight, meals, etc.

        5. OGC completes SF 326, and an OGC supervisor approves the final SF 326 reports
            listing all payments received from non-federal sources over $250 for the reporting
            period.

        6. OGC sends the SF 326 report to OGE before the semiannual reporting deadline.


Objectives
  Our objectives were to determine whether Ex-Im Bank complied with federal and agency
  regulations pertaining to sponsored travel and to evaluate the Bank’s processes and
  supporting documentation for approving and accepting sponsored travel requests, billing
  sponsors, and collecting reimbursements from sponsors. In addition, our objective was to
  follow-up on corrective actions implemented as a result of our previous audit report,
  “Sponsored Transactional Travel.”8 See Appendix A for details of the audit’s scope and
  methodology; our review of internal controls, federal laws, regulations, policies, and
  guidance; and a description of prior audit coverage.




  8
      “Sponsored Transactional Travel” (Export-Import Bank OIG/OIG-AR-10-04, June 2010).


                                          AUDIT REPORT OIG-AR-14-05
                                       505050505
                                                       6
                             EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                                           RESULTS


Lack of Controls over Sponsored Travel Vouchers Resulted in Non-
Compliance with the Federal Travel Regulation and Ex-Im Bank’s
Travel Policy
  Ex-Im Bank employees did not comply with the FTR and Ex-Im Bank’s travel policy because
  employees on sponsored travel failed to submit travel vouchers within the required time-
  frame for more than half of the trips examined. General Service Administration’s “Federal
  Travel Regulation,” states that employees on official government travel are required to
  submit travel claims within five working days after completion of trips, and agencies are
  required to govern this timeframe.9 We projected that more than half of the population -
  199 of 343 or 58 percent - of sponsored transactional vouchers were not submitted within
  five work days after completion of a trip. Specifically, we sampled 31 sponsored
  transactional vouchers and found 18 or 58 percent did not comply with the FTR. During
  our review of travel vouchers, we identified an employee that submitted two travel
  vouchers for the same trip, and Ex-Im Bank paid the employee twice resulting in an
  overpayment of $1,427.46. In addition, Ex-Im Bank did not properly monitor compliance
  with the FTR and its own travel policy. This occurred because Ex-Im Bank did not establish
  a policy that clearly identified the roles, responsibilities, and accountability of individual
  travelers, direct supervisor, SVPs, and of OAS. Furthermore, OAS used ineffective
  procedures when identifying employees who did not submit travel vouchers within five
  work days after completion of a trip. We found that Ex-Im Bank did not establish an
  effective framework for applying internal control standards over sponsored travel.


  EX-Im Bank Employees Frequently Did Not Comply with the Federal Travel
  Regulation and Ex-Im Bank’s Travel Policy
  Ex-Im Bank employees on sponsored travel are
  required to follow FTR which states, “Unless your            FTR requires Ex-Im Bank to establish
  agency administratively requires you to submit your          policies and procedures to govern the
  travel claim within a shorter timeframe, you must            timeframes for an employee to submit a
                                                               travel voucher for reimbursement.
  submit your travel claim as follows: (a) within 5
  working days after you complete your trip or period
  of travel; or (b) every 30 days if you are on a continuous travel status.”10 In addition, the
  FTR requires Ex-Im Bank to establish policies and procedures to govern the timeframes for


  9
    We determined the requirement submission date by using working days. We used calendar days to show
  the number of days the outstanding travel vouchers exceeded the required submission date. Working days
  were calculated as business days, i.e., weekdays not including Federal Holidays.
  10
     See FTR, 41 C.F.R. § 301-52.7.


                                       AUDIT REPORT OIG-AR-14-05
                                    505050505
                                                     7
                           EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


an employee to submit a travel voucher for reimbursement.11 In accordance with the FTR,
Ex-Im Bank’s travel policy states, “Within five business days after travel is completed,
travelers must request reimbursement using the form EXB-2011-1, “Request for
Reimbursement of Actual Expenses,” and following the steps described in the Bank’s
internal travel voucher guidelines.”12 An example of the EXB-2011-1, “Request for
Reimbursement of Actual Expenses” form is included in Appendix E.

In addition, U.S. Government Accountability Office’s (GAO) “Standards for Internal Control
in the Federal Government” states that internal controls should provide reasonable
assurance that the objectives of the agency are being achieved in compliance with
applicable laws and regulations.13 Further, internal controls include management:

        providing leadership in the internal control environment, especially in setting and
         maintaining the organization’s ethical tone, providing guidance for proper behavior,
         and providing discipline where appropriate;

        establishing control mechanisms and activities in place and monitoring and
         evaluating the controls; and

        providing operating information to determine whether the agency is achieving its
         compliance requirements under various laws and regulations.

Based on our projection of a statistical sample, more than half of Ex-Im Bank’s
sponsored transactional trips did not comply with travel regulations and policy.
Based on a projection of a statistical sample of 31 sponsored transactional trips, we found
that more than half of employees who participated in sponsored transactional travel did
not submit travel vouchers within five working days after completion of a trip, as required
by FTR and the Ex-Im Bank travel policy. From our review of a statistical sample of 31
sponsored transactional travel vouchers, we identified 18 vouchers (58 percent) of the
sample that were submitted more than five working days after completion of a trip.
Projecting the results of our sample onto a population of 343 trips, we can expect that 199
travel vouchers were submitted more than five working days after completion of a trip.
Furthermore, we projected that 55 of the 343 trips or about 16 percent of the vouchers
were not in compliance with the FTR more than 30 calendar days after the required
submission day. Figure 1 illustrates the details over the sample and the projection to the
population of sponsored transactional trips.




11
   See FTR, 41 C.F.R. § 301-71.207.
12
   “Export-Import Bank of the U.S. Travel Policy,” RM-2011-01, October 2011.
13
   “Standards for Internal Control in the Federal Government” (GAO/AIMD-00-21.3.1, November 1999).


                                     AUDIT REPORT OIG-AR-14-05
                                  505050505
                                                   8
                            EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Figure 1. Results and Projection of Sample
Sponsored Transactional Travel Trips (January 2011 – April 2013)
     Number of Calendar Days                                                             Number of
                                          Number of              Percentage
      Not in Compliance with                                                              Vouchers
                                        Vouchers in the             of the
            the FTR and                                                                 Projected to
                                           Sample                  Sample
     Ex-Im Bank’s Travel Policy                                                          Population
          120 Days or More                       2                    6.5%                     22
         60 Days – 119 Days                      1                     3%                       11
         30 Days – 59 Days                       2                    6.5%                      22
         15 Days – 29 Days                       3                    10%                      33
           1 Day – 14 Days                       10                   32%                      111
               Totals                            18                   58%                      199
Source: OIG analysis based on sponsored transactional travel vouchers received from OAS and data from
FAS-t.

The 18 late vouchers in the sample consisted of 11 different employees. Four employees
submitted vouchers late two or more times. One employee submitted vouchers late four
times.

Ex-Im Bank overpaid an employee for travel vouchers that were submitted twice for
the same sponsored transactional trip. While reviewing the sample of 31 sponsored
transactional travel vouchers for timeliness, we found that one employee submitted two
travel vouchers for the same trip, and Ex-Im Bank paid the employee twice, resulting in an
overpayment of $1,427.46. The employee submitted a travel voucher in September 2011
and again in February 2012 for the same trip that ended in September 2011. We inquired
about the transaction, and OAS took action to collect reimbursement from the employee.
On February 26, 2014, the employee reimbursed Ex-Im Bank the amount due of $1,427.46.

One employee submitted travel vouchers late for 13 out of the 14 sponsored
transactional trips reviewed. In addition to the review of the 31 sponsored transactional
trips in our sample, we conducted an extended review of the trips taken by the employee
who submitted four travel vouchers more than five work days after completion of the trips.
We determined that the employee completed 14 sponsored transactional trips from
January 2011 to April 2013, and for 13 of those trips the employee submitted travel
vouchers more than five work days after completion, resulting in non-compliance with the
FTR. 14 After determining the required submission date for each of the 14 trips, we
calculated the number of calendar days the outstanding travel vouchers exceeded the
required submission date. For seven of the 14 sponsored trips, the employee submitted
travel vouchers that were not in compliance with the FTR by 90 calendar days or more. Of
those seven sponsored transactional trips, the employee submitted two travel vouchers
that were not in compliance with the FTR by 260 calendar days or more. For six of the
sponsored transactional trips, the employee submitted travel vouchers not in compliance

14
  The 14 Sponsored transactional trips did not include trips that were paid in advance or paid in-kind
because those trips did not require travel voucher submission.


                                       AUDIT REPORT OIG-AR-14-05
                                    505050505
                                                      9
                              EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


with the FTR from one calendar day to 32 calendar days. The employee only completed
one travel voucher within five work days after completion of a trip in compliance with FTR.
Figure 2 illustrates the details over the 14 sponsored transactional trips taken by one
employee and the timing of voucher submission.

Figure 2. Voucher Submission for Trips from One Employee
Sponsored Transactional Travel (January 2011 – April 2013)

                            Timing of Voucher Submission
                                 14
                                 13
                                 12
                                 11
                                 10
                                  9
      Individual Trips by         8
         One Traveler             7
                                  6
                                  5
                                  4
                                  3
                                  2
                                  1
                                       0           50       100          150       200       250       300       350
                                           1   2        3   4        5   6     7   8     9   10 11 12 13 14
        Maximum Work Days Allowed
        For Voucher Submission After       5   5        5   5        5   5     5   5     5   5     5   5     5   5
              Trip Completion
         Number of Calendar Days not
        Compliant with the FTR and Ex- 310 260 163 117 114 114 90 32 20 15                         7   4     1   0
               Im Bank Policy

                                                                         Calendar Days

 Source: OIG analysis based on sponsored travel vouchers received from the OAS and data from FAS-t.


Federal Standards for Internal Control Require Assurance
GAO “Standards for Internal Control in the Federal Government” states that internal
controls should provide reasonable assurance that the agency is in compliance with
applicable laws and regulations.15 Furthermore, such standards state that internal control
should generally be designed to assure that ongoing monitoring occurs in the course of
normal operations.


15
     “Standards for Internal Control in the Federal Government” (GAO/AIMD-00-21.3.1, November 1999).


                                          AUDIT REPORT OIG-AR-14-05
                                       505050505
                                                                10
                              EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


However, OAS failed to properly monitor travel voucher submission and ensure the proper
implementation of the FTR and Ex-Im Bank’s travel policy. Based on the OIG’s prior audit
on June 4, 2010, “Sponsored Transactional Travel,” OAS established a procedure to notify
travelers (by email) after four business days if the employee did not submit a voucher after
completion of a trip.16 If travelers did not submit a travel voucher within 10 business days,
OAS would notify the employee and the employee’s supervisor. However, we found that
OAS did not follow its own procedure to monitor travel voucher submission and notify
employees not in compliance with the FTR. Specifically, we requested email notifications
for travel vouchers identified in our sample that were not submitted within five work days
after completion of a trip, and OAS was not able to provide an example of any notifications
sent to the employees identified in the sample. OAS was able to provide an example of one
notification sent to an employee and the employee’s supervisor for three outstanding travel
vouchers outside of our sample, but OAS sent the notification more than 20 calendar days
after the required submission date for the three travel vouchers.


Lack of Accountability Leads to Late Reporting
GAO’s “Standards for Internal Control in the Federal Government” state that management is
responsible for maintaining the organization’s ethical tone, providing guidance for proper
behavior, and providing discipline were appropriate.17 However, Ex-Im Bank did not
establish a policy providing consequences for not complying with FTR and Ex-Im Bank’s
travel policy. The policy did not clearly establish accountability for immediate supervisors
and SVPs approving employee travel vouchers.

In addition, OAS failed to notify employees not in compliance with the FTR and Ex-Im Bank
travel policy because the procedures used were ineffective. OAS established a procedure to
notify travelers who did not submit travel vouchers within five work days after completion
of a trip by relying on reports received from Citi Bank’s SmartPay System. However,
reliance on Citi Bank reports was ineffective for the following reasons.

       1. Reports were only issued every 30 days, and as a result, were not effective in
          identifying travelers who did not submit vouchers within five work days after
          completion of a trip.

       2. Reports only identified employees who had travel card balances. As a result, the
          reports were not effective in identifying travelers who personally paid card balances
          in total but did not submit a travel voucher.

In addition, we found that OAS did not always use the reports to notify employees who did
not submit a travel voucher. The OAS Director stated that even when reports from Citi
Bank’s SmartPay system were used, employees were only notified on an ad hoc basis. The
OAS Director stated that it was the employee’s responsibility to submit travel vouchers and

16
     “Sponsored Transactional Travel” (Export-Import Bank OIG/OIG-AR-10-04, June 2010).
17
     “Standards for Internal Control in the Federal Government” (GAO/AIMD-00-21.3.1, November 1999).



                                        AUDIT REPORT OIG-AR-14-05
                                     505050505
                                                     11
                        EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


pay their travel cards on time. We found that OAS did not properly monitor compliance
with the FTR and Ex-Im Bank travel policy’s requirement for travelers to submit travel
vouchers within five work days after completion of a trip.


Federal Standards for Internal Control Require Compliance with Applicable
Laws and Regulations
GAO “Standards for Internal Control in the Federal Government” state that internal controls
should provide reasonable assurance that objectives of the agency are being achieved in
compliance with applicable laws and regulations. Further, management should establish,
monitor, and communicate the effectiveness of internal controls to ensure that the agency
is achieving its compliance requirements under various laws and regulations.

Based on our projection of the statistical sample of 31 sponsored transactional travel trips,
we found that more than half of all sponsored travelers were not in compliance with the
FTR and Ex-Im Bank’s travel policy requiring employees to submit travel vouchers within
five work days after completion of trips. Ex-Im Bank did not effectively monitor travel
vouchers for compliance with FTR and the Ex-Im Bank travel policy. As a result, no
effective mechanisms were in place to identify non-compliance with the FTR and
communicate the non-compliance to Ex-Im Bank senior management. Without an effective
internal control system identifying and communicating non-compliance with applicable
laws and regulations, senior management could not make decisions and establish controls
to correct the situation.




                                  AUDIT REPORT OIG-AR-14-05
                               505050505
                                               12
                          EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Recommendations, Management’s Response, and Evaluation of
Management’s Response
  To improve Ex-Im Bank’s compliance with Federal Travel Regulation requirements to
  submit travel vouchers within five work days after the completion of a trip, the Office of
  Administration and Security should:

     1. Establish effective control activities over submission of the sponsored travel
        vouchers that ensure management’s directives are carried out. To include, clearly
        identifying the roles, responsibilities, and accountability of individual travelers,
        direct supervisors, SVPs, and of the Office of Administration and Security.

            a. Provide training to Ex-Im Bank employees over the roles, responsibilities,
               and accountability of individuals and the Office of Administration and
               Security.

         Management’s Response. Management agrees with the recommendation. OAS
         will establish effective control activities over submission of the sponsored travel
         vouchers to ensure management’s directives are carried out. OAS will identify the
         roles, responsibilities, and accountability of Bank staff regarding employee
         sponsored travel and provide training to the appropriate Bank staff.

         Management would like to note that the FTR and Bank policy requirements for
         travel voucher submission are measured by work days, while the OIG report uses
         calendar days in Figure 1 and 2, as well as the discussion in that section of the
         report.

         Evaluation of Management’s Response. Management’s proposed actions are
         responsive; therefore, the recommendation is resolved and will be closed upon
         completion and verification of the proposed actions.

         The OIG used both work days and calendar days. As discussed in the report, the FTR
         and Bank policy required employees to submit travel vouchers within five work
         days after completion of a trip. The OIG used work days to determine the required
         submission date. The OIG used calendar days to show the number of days the
         outstanding travel vouchers exceeded the required submission date.

     2. Establish reporting procedures over sponsored travel that allow for information to
        be communicated to management and others within the agency who need it and in a
        form and within a time frame that enables them to carry out their internal control
        and other responsibilities.

         Management’s Response. Management agrees with the recommendation. OAS
         will establish reporting procedures over sponsored travel that allow for
         communication to the appropriate Bank staff and management to enhance
         compliance with internal controls.



                                    AUDIT REPORT OIG-AR-14-05
                                 505050505
                                                 13
                EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Evaluation of Management’s Response. Management’s proposed actions are
responsive; therefore, the recommendation is resolved and will be closed upon
completion and verification of the proposed actions.




                          AUDIT REPORT OIG-AR-14-05
                       505050505
                                       14
                              EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Ex-Im Bank Did Not Report Nine Sponsored Conference Payments
Totaling $16,159 to the Office of Government Ethics
  Ex-Im Bank did not report to OGE all sponsored conference payments received from non-
  federal Sources, as required by FTR. We found that Ex-Im Bank did not report 15 percent
  or nine out of 60 sponsored conference payments totaling $16,159.18 OGC did not report
  all sponsored conference payments because OGC did not establish strong internal controls
  to ensure that the data it used to determine required, reportable payments was complete
  and accurate. In addition, the Ex-Im Bank Travel policy did not address the requirement to
  report sponsored conference payments to OGE, and as a result, Ex-Im Bank did not comply
  with FTR’s requirement to report complete and accurate payments received from non-
  federal sources for sponsor conference travel and the public was denied complete
  information over the payments Ex-Im Bank received from non-federal sources.


  Ex-Im Bank is Required to Report Sponsored Conference Travel Payments
  Accepted from Non-Federal Sources
  Chapter 304 of the FTR requires agencies to submit SF 326, “Semiannual Report of
  Payments Accepted from a Non-Federal Source” to report payments received from non-
  federal sources over $250 for sponsored conference travel.19 Specifically, FTR requires
  federal agencies to:

          a) “Submit the Standard Form 326 no later than May 31 for payments received from
          the preceding October 1 through March 31”; and

          (b) “Submit the Standard Form 326 no later than November 30 for payments
          received from the preceding April 1 through September 30.”

  FTR states that “OGE is responsible for making the information provided by the agencies
  available to public. It is each agency’s responsibility to file the accurate and complete
  reports and to make the appropriate conflict of interest analysis.”20

  In addition, GAO’s “Standards for Internal Control in the Federal Government” state that
  internal controls should provide reasonable assurance that the objectives of the agency are
  being achieved in the following categories: (1) reliability of reports for internal and
  external use, and (2) compliance with applicable laws and regulations.21




  18
     We identified 60 reportable payments by using FAS-t data provided by OCIO for all sponsored conference
  completed trips from March 2011 to March 2013. We only identified reportable payments if the completed
  trips were $250 or more. We estimated the total of payments not reported by using the estimates of travel
  costs maintained in FAS-t and provided by OCIO.
  19
     See FTR, 41 C.F.R. § 304-6.4.
  20
     See FTR, 41 C.F.R. § 304-6.9.
  21
     “Standards for Internal Control in the Federal Government” (GAO/AIMD-00-21.3.1, November 1999).


                                        AUDIT REPORT OIG-AR-14-05
                                     505050505
                                                      15
                            EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Nine Sponsored Conference Payments Totaling $16,159 Were Not Reported
to the Office of Government Ethics
We found that Ex-Im Bank did not report
all sponsored conference payments as         OGC did not report, to the Office of General Ethics,
required by the FTR. From March 2011         15 percent of reportable payments, totaling an
                                             estimate of $16,159.
to March 2013, we identified 60
reportable sponsored conference travel payments totaling an estimated $109,577.22
However, OGC did not report to OGE 15 percent or nine payments of the identified
reportable payments received from non-federal sources, totaling an estimate of $16,159.
OGC only reported 51 of the 60 sponsored conference travel payments. Reported and not
reported sponsored conference payments are illustrated in Figure 3.

Figure 3. Sponsored Conference Payments Not Reported
March 2011 – March 2013
                      Conference
                        Travel
                     Payments Not
                       Reported
                         15%




                                                                      Conference
                                                                         Travel
                                                                       Payments
                                                                       Reported
                                                                          85%


        Source: OIG analysis based off of information received from the Chief Information
        Officer using FAS-t and OGC SF 326 reports.

We determined that five out of nine sponsored conference payments not reported to OGE
took place in one reporting period out of the five reporting periods reviewed. Specifically,
OGC did not report five payments from non-federal sources in one reporting period from
April 1, 2012 to September 30, 2012. OGC did not report two payments from non-federal
sources in the reporting period from October 2010 to March 2011.23 OGC did not report
one payment received from non-federal sources from April 2011 to September 30, 2011
and one payment received from October 1, 2012 to March 31, 2013. OGC reported all

22
   We estimated the total of payments by using the estimates of travel costs maintained in FAS-t and provided
by OCIO.
23
   During the period from October 2010 to March 2011, we only identified the reportable sponsored
conference payments for the month of March 2011 because our scope was from March 2011 to March 2013.


                                       AUDIT REPORT OIG-AR-14-05
                                    505050505
                                                     16
                             EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


payments received from October 1, 2011 to March 31, 2012. The payments that were not
reported are identified per period in Figure 4.

Figure 4. Payments Not Reported per Period
March 2011 – March 2013

                               Sponsored Conference Payments
                                       Not Reported
                   Oct 2012 - Mar 2013
                    Apr 2012 - Sep 2012
                   Oct 2011 - Mar 2012
                    Apr 2011 - Sep 2011
                              Mar 2011

                                          0         5             10           15            20
                                                   Apr 2011 - Oct 2011 - Apr 2012 - Oct 2012 -
                                          Mar 2011
                                                   Sep 2011 Mar 2012 Sep 2012 Mar 2013
                  Payments Reported          1         9          15         9          17
                  Payments Not Reported       2            1        0         5          1



          Source: OIG analysis based off of information received from the OCIO using FAS-t and
                               Sponsored Conference Payments
          OGC SF 326 reports.
                                       Not Reported
Verification ofOct
                Data
                   2012 Not   Performed
                        - Mar 2013
GAO’s “StandardsApr  for2012  - Sep 2012
                          Internal    Controls in the Federal Government” states that control
                   Oct 2011  - Mar 2012 and reconciliations, help to ensure that all transactions
activities, including verifications
are completely and  Apr accurately
                        2011 - Sep 2011
                                      recorded.24 However, OGC did not establish procedures to
                               Mar  2011
help ensure complete reporting and recording of payments from non-federal sources for
sponsored conference payments. 0We found that         5    OGC did10 not reconcile
                                                                               15    or verify
                                                                                            20 sponsored
conference payment information that it received from the OCIO with any other source to
                                                     Apr 2011 Oct 2011 Apr 2012 Oct 2012
ensure that the list was complete. OGC          relied on the OCIO
                                          Mar 2011 - Sep         - Mar
                                                                       to provide
                                                                            - Sep
                                                                                   a list of all sponsored
                                                                                      - Mar
conference payments and did not have direct 2011        access to2012
                                                                   the historical
                                                                            2012  travel
                                                                                      2013data in the
FAS-t system. Payments
                25 Therefore,     OGC did not1 perform
                            Reported                     9 an independent
                                                                   15         9check to17ensure that OGC
captured all of Payments
                  the required,     reportable
                            Not Reported      2 payments 1  from   non-federal
                                                                    0         6 sources.2    An illustration
describing OGC’s reporting process is included in Appendix F.

Furthermore, OGC experienced employee turnover during the reporting periods under
review. In response to why OGC did not report all sponsored conference payments to OGE,

24
  “Standards for Internal Control in the Federal Government” (GAO/AIMD-00-21.3.1, November 1999).
25
  During the course of our audit, OGC stated that they gained access to historical travel data maintained in
FAS-t.


                                        AUDIT REPORT OIG-AR-14-05
                                     505050505
                                                      17
                              EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


OGC officials stated that they could not provide a specific answer. OGC officials stated that
most of the office staff is new, and the current officials were not employed at Ex-Im Bank
during the period under review from March 2011 to March 2013.

Weakness in Internal Controls Led to Incomplete Reporting

Ex-Im Bank failed to properly implement GAO’s “Standards for Internal Control in the
Federal Government.” GAO’s “Standards for Internal Control in the Federal Government”
states that internal controls should provide reasonable assurance that the objectives of the
agency are being achieved in the following categories: (1) reliability of reports for internal
and external use, and (2) compliance with applicable laws and regulations.26 We found that
Ex-Im Bank did not report $16,159 or 15 percent of the number of payments received from
non-federal sources to OGE and did not establish a policy to address OGE reporting for
sponsored conference payments. In addition, Ex-Im Bank did not comply with FTR’s
requirement to report complete and accurate payments received from non-federal sources
for sponsor conference travel and the public was denied complete information over the
payments Ex-Im Bank received from non-federal sources.




26
     “Standards for Internal Control in the Federal Government” (GAO/AIMD-00-21.3.1, November 1999).


                                        AUDIT REPORT OIG-AR-14-05
                                     505050505
                                                     18
                          EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL



Recommendations, Management’s Response, and Evaluation of
Management’s Response
  To improve controls over Ex-Im Bank’s requirement to report payments received from
  non-federal sources to the Office of General Ethics, the Office of General Counsel should:

     1. Establish mechanisms to obtain specific, measurable, and reliable data in order to
        ensure that OGC reports all required payments received from non-federal sources,
        including verification, reconciliation, and documentation of data.

         Management’s Response. Management agrees with the recommendation. OGC
         will work with OAS and the Office of the Chief Information Officer (OCIO) to
         establish mechanisms to obtain specific, measurable, and reliable data in order to
         ensure OGC complies with OGE reporting requirements for payments received from
         non-federal sources.

         Evaluation of Management’s Response. Management’s proposed actions are
         responsive; therefore, the recommendation is resolved and will be closed upon
         completion and verification of the proposed actions.




                                    AUDIT REPORT OIG-AR-14-05
                                 505050505
                                                 19
                              EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Ex-Im Bank Complied with Regulations over Procedures to Accept
Payments from Non-Federal Sources for Sponsored Travel
   Ex-Im Bank had adequate controls over some aspects of its sponsored travel program. For
   example:
          Ex-Im Bank employees properly completed travel authorizations for sponsored
           transactional and conference travel.

          Ex-Im Bank properly followed procedures to accept payments from non-federal
           sources for sponsored transactional and conference travel.

          Ex-Im Bank’s OCFO properly billed and collected reimbursements due from
           non-federal sources for sponsored transactional travel.

  Ex-Im Bank employees properly completed travel requests for sponsored
  transactional travel. CFR states that “an employee requesting approval of payment of
  travel expenses by a non-Federal source under this part shall submit to the employee's
  supervisor (except in the case of Board members) and the DAEO a written description of
  the following: the nature of the meeting or similar event and the reason that it cannot be
  held at Ex-Im Bank, the date(s) and location of the meeting or similar event, the identities
  of all participants in the meeting or similar event, the name of the non-Federal source
  offering to make the payment, the amount and method of the proposed payment, and the
  nature of the expenses.”27 We reviewed the statistical sample of 31 sponsored
  transactional travel requests out of a population of 343 sponsored transactional travel
  requests to verify whether the employee submitted all the relevant information according
  to the CFR, and we found that for all 31 sponsored transactional travel requests in the
  sample, employees included the required information as set forth by the CFR.

  Ex-Im Bank employees properly completed travel requests for sponsored conference
  travel. FTR states that an employee may accept payment from a non-federal source for
  sponsored conference travel expenses, but only when the agency specifically authorizes
  such acceptance and approves acceptance of such payment in advance of travel.28 Before
  authorizing such acceptance, an agency must be guided by all relevant considerations
  including the identity of the non-federal source; purpose of the meeting; identity of other
  expected participants; nature and sensitivity of any matter pending at the agency which
  may affect the interest of the non-federal source; significance of the employee’s role in any
  such matter; and the monetary value and character of the travel benefits offered by the
  non-federal source.29 We reviewed documentation for a statistical sample of 25 sponsored
  conference travel requests out of a population of 89 sponsored conference travel requests
  to verify the dates that approvals were obtained, and we found that employees received

  27
     12 C.F.R. § 412.7(b), “Acceptance of Payment from a non-Federal Source for Travel Expenses,” January 1,
  2005.
  28
     See FTR, 41 C.F.R. § 304-3.3.
  29
     See FTR, 41 C.F.R. § 304-5.3.


                                         AUDIT REPORT OIG-AR-14-05
                                      505050505
                                                       20
                            EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


approval for 23 out of 23 sponsored conference travel requests in advance of travel. Two
trips were not tested for approval because one trip was cancelled and one trip was
disapproved. In addition, we reviewed travel request documentation from the statistical
sample of 25 sponsored conference travel requests to verify whether the employee
submitted all the relevant information according to the FTR, and we found that for all 25
sponsored conference travel requests in the sample, employees included the required
information as set forth by FTR.30

Ex-Im Bank properly followed procedures to accept payments from non-federal
sources for sponsored transactional travel. CFR states that the employee's immediate
supervisor and Ex-Im Bank's designated agency ethics official or his/her designee must
approve any sponsored transactional travel offer and acceptance of payment and must
make a conflict of interest analysis. In addition, Ex-Im Bank employees are prohibited from
soliciting sponsored travel from non-federal sources.31 For the sample of 31 sponsored
transactional travel requests out of 343 sponsored transactional travel requests, we
reviewed supporting documentation to determine whether sponsors offered payment of
travel expenses. We also reviewed travel request documentation to determine whether the
employee’s supervisors and OGC approved the travel requests before employees accepted
payment.

We found that for 30 out of 31 sponsored transactional travel requests, travel request
documentation included offers from the sponsor to pay travel expenses. One travel request
did not require a sponsor letter or approval because the request was cancelled. We also
found that OGC (the designated agency ethics official) and employee supervisors reviewed
all 30 sponsored transactional travel requests before approving and accepting a payment
from a non-federal source, as required by CFR.32 OGC stated that before approving
sponsored transactional travel requests, they checked the requests for potential conflicts of
interest and to determine whether the trip was solicited. In addition to CFR requirements,
we found that the OAS Director performed a final review of the sponsored travel requests
to ensure that approvals were received from the employee’s supervisor and OGC and
appropriate documentation was maintained. We found that the OAS Director properly
reviewed the 30 sponsored transactional travel requests out of the population of 343
sponsored transactional travel requests.

Ex-Im Bank properly followed procedures to accept payments from non-federal
sources for sponsored conference travel. FTR states that an agency may authorize an
employee to accept payment from a non-federal source only when the agency authorizes
the payment prior to travel; the travel is in the interest of the government; the travel
relates to the employee’s official duties; and the non-federal source is not disqualified due

30
   We verified that employees submitted the required documentation set forth in FTR, except documentation
for the nature and sensitivity of any matter pending at the agency which may affect the interest of the non-
Federal source because this information was not identifiable through the documentation reviewed.
31
   12 C.F.R. § 412.3(b), “Acceptance of Payment from a non-Federal Source for Travel Expenses,” January 1,
2005.
32
   12 C.F.R. § 412.7(b), “Acceptance of Payment from a non-Federal Source for Travel Expenses,” January 1,
2005.


                                       AUDIT REPORT OIG-AR-14-05
                                    505050505
                                                     21
                            EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


to a conflict of interest under FTR Section § 304-5.3.33 In addition, Ex-Im Bank employees
are prohibited from soliciting sponsored conference travel payments from non-federal
sources.34 For the statistical sample of 25 sponsored conference travel requests out of 89
sponsored conference travel requests, we reviewed travel request documentation to
determine whether the employee’s supervisors and OGC approved the travel requests
before employees accepted payment, indicating that the officials reviewed the trip to
determine it was in the interest of the government for official duties and a conflict of
interest did not exist. We also reviewed supporting documentation to determine whether
sponsors offered payment of travel expenses, and the employees did not solicit a payment.

We found that for all 25 sponsored conference travel requests out of a population of 89
sponsored conference travel requests, OGC and employee supervisors reviewed 23
sponsored conference travel requests before approving and accepting a payment from a
non-federal source, as required by FTR. We did not test two trips because the trips were
cancelled or disapproved. In addition, we found that for the 23 sponsored conference
travel requests, travel request documentation included offers from the sponsor to pay
travel expenses. OGC stated that before approving sponsored conference travel requests,
they checked the requests for potential conflicts of interest and to determine whether the
trip was solicited. In addition to FTR requirements, we found that the OAS Director
performed a final review of the sponsored travel request to ensure that approvals were
received from the employee’s supervisor and OGC and appropriate documentation was
maintained. We found that the OAS Director properly reviewed the 23 sponsored
conference travel requests out of the population of 89 sponsored conference travel
requests.

Ex-Im Bank’s OCFO properly billed and collected reimbursements due from non-
federal sources for sponsored transactional travel. The CFR states that Ex-Im Bank
may accept payment from a conflicting non-federal source if the requirements under
section 412.7 “Conditions for Acceptance”35 are met and the employee's supervisor (except
in the case of Board members) and the DAEO determine that Ex-Im Bank's interest in the
employee's attendance at or participation in the meeting or similar event outweighs
concern that acceptance of the payment by Ex-Im Bank may cause a reasonable person to
question the integrity of Ex-Im Bank's programs and operations.36 We found that OCFO
properly billed and collected payments owed by non-federal sources for sponsored
transactional travel. We reviewed 31 sponsored transactional trips and determined that
27 trips required Ex-Im Bank to bill the sponsor for reimbursement. Three trips were paid
in advance or paid-in-kind and did not require a bill.37 One trip was cancelled and did not
require a bill. To ensure that the proper amount was billed, we reviewed the employee’s
travel voucher documentation identifying the amount the sponsor should be billed, the bill
sent to the sponsor, and data in the AAA system identifying the amount that was received
33
   See FTR, 41 C.F.R. § 304-5.1.
34
   See FTR, 41 C.F.R. § 304-3.5.
35
   12 C.F.R. § 412.7, “Acceptance of Payment from a non-Federal Source for Travel Expenses,” January 1, 2005.
36
   12 C.F.R. § 412.9, “Acceptance of Payment from a non-Federal Source for Travel Expenses,” January 1, 2005.
37
   Depending on the agreement between the sponsor and Ex-Im Bank, the sponsor had an option to pay the
travel expenses in advance, pay in-kind, or reimburse Ex-Im Bank for the travel expenses.


                                       AUDIT REPORT OIG-AR-14-05
                                    505050505
                                                     22
                            EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


for the trip. We found that the OCFO properly billed and collected reimbursement from the
sponsor for all 27 transactional trips requiring the billing of the sponsor.

Furthermore, we found that Ex-Im Bank established adequate internal controls over the
billing and collection process as suggested by GAO’s “Standards for Internal Controls in the
Federal Government.”38 We found that OCFO:

        established written procedures to guide the billing and collection process for
         sponsored travel;

        monitored travel vouchers that required a bill to the sponsor by reviewing the
         “Unbilled Receivables Report;”39

        monitored outstanding bills that were sent to sponsors by sending delinquent bills
         to sponsors on a bi-weekly basis; and

        distributed a “Sponsor Travel Due by Division” monthly report to divisions where
         employees had an outstanding bill from a sponsor. The “Sponsor Travel Due by
         Division” report allowed employees an opportunity to personally contact sponsors
         who did not reimburse Ex-Im Bank for travel expenses.


Ex-Im Bank was in Compliance with Regulations over Procedures to Accept
Payment from Non-Federal Sources for Sponsored Travel
Through the work conducted over a statistical sample of the population of sponsored
transactional and conference travel, we were able to determine that during the period
under review, Ex-Im Bank employees who participated in sponsored transactional and
conference travel properly completed travel authorizations in accordance with CFR.40 In
addition, we also found that during the period under review Ex-Im Bank properly followed
procedures to approve and accept payments from non-federal sources. For sponsored
transactional trips billed to the sponsor, we found that the OCFO properly billed and
collected reimbursements due from non-federal sources.41 In addition, the OCFO
established internal controls that provided reasonable assurance that payments from non-
federal sources were billed accurately and the amounts were reimbursed.

38
   “Standards for Internal Control in the Federal Government” (GAO/AIMD-00-21.3.1, November 1999) states
that “Control activities are the policies, procedures, techniques, and mechanisms that enforce management’s
directives, such as the process of adhering to requirements for budget development and execution.” “Internal
control should generally be designed to assure that ongoing monitoring occurs in the course of normal
operations. It is performed continually and is ingrained in the agency’s operations.”
39
   The OCFO’s “Unbilled Receivables Report” identified reimbursements that were not yet billed to the
sponsor after employees submitted travel vouchers.
40
   12 C.F.R. § 412, “Acceptance of Payment from a non-Federal Source for Travel Expenses,” January 1, 2005.
41
   We did not review billing and collection of travel expenses for sponsored conference travel because Ex-Im
Bank’s procedures were the same for sponsored transactional and conference travel expenses. Therefore,
only testing sponsored transactional trips provided a reasonable basis to determine whether Ex-Im Bank
properly billed and collected reimbursement from sponsors.


                                       AUDIT REPORT OIG-AR-14-05
                                    505050505
                                                    23
                               EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Follow-up Audit Results on Prior Recommendations
 GAO’s “Standards for Internal Controls in the Federal Government” states “monitoring of
 internal control should include policies and procedures for ensuring that the findings of
 audits and other reviews are promptly resolved.” “The resolution process begins when
 audit or other review results are reported to management, and is completed only after
 action has been taken that (1) corrects identified deficiencies, (2) produces improvements,
 or (3) demonstrates the findings and recommendations do not warrant management
 action.”42

 We found that two of the three recommendations issued in the OIG’s prior audit report
 “Sponsored Transactional Travel,” have been resolved.43 However, the prior
 recommendation to establish a policy and a procedure to follow-up on travel vouchers that
 have not been submitted within five business days after completion of a trip has not been
 resolved. We found that deficiencies still exist in Ex-Im Bank’s ability to submit travel
 vouchers within five business days after completion of a trip, as required by FTR and Ex-Im
 Bank’s Travel Policy. Though Ex-Im Bank has taken action to improve internal controls
 over the authorization and billing areas of the sponsor travel program, improvements are
 still needed to ensure compliance with FTR and Ex-Im Bank’s Travel Policy and to resolve
 audit findings.


 Prior Audit Recommendation One Was Not Implemented
 The OIG recommended that the OAS Director should develop a policy and procedure to
 follow-up on travel vouchers not submitted within the established time frame.

 Background. The OIG made this recommendation because it found in its review of 39
 sponsored transactional trips completed by Ex-Im Bank employees, 15 travel vouchers
 were submitted more than five work days after completion of a trip. OIG also found that
 OAS did not have a policy or procedure to follow-up on non-receipt of vouchers. As a
 result, Ex-Im Bank did not always have the necessary information to bill sponsors in a
 timely manner because not all travelers submitted vouchers within five work days after
 completion of a trip.

 Prior Management Response. OAS developed a recommended procedure for following
 up on the Bank's travel vouchers when they were not submitted within the established
 time frame of five days, per the Export-Import Bank Travel Policy. If the traveler's voucher
 had not been received four business days after return from a trip, an email notification
 would be sent to the traveler. If the traveler's voucher was not received 10 business days
 upon return of trip, an email notification would be sent out to the traveler and his direct
 supervisor notifying them of the delay.


 42
      “Standards for Internal Control in the Federal Government” (GAO/AIMD-00-21.3.1, November 1999).
 43
      “Sponsored Transactional Travel” (Export-Import Bank OIG/OIG-AR-10-04, June 2010).



                                         AUDIT REPORT OIG-AR-14-05
                                      505050505
                                                      24
                       EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Current Audit Results. As discussed in this report, we found that OAS did not implement
the prior recommendation to establish an effective policy and procedure to follow-up on
travel vouchers not submitted within five work days after completion of a trip, as required
by FTR and Ex-Im Bank’s Travel Policy. In addition, we found that from a statistical sample
of 31 sponsored transactional trips out of 343 sponsored transactional trips, 18 vouchers
or 58 percent of the sample were not submitted within five work days after completion of a
trip. As a result, we found that Ex-Im Bank did not have an effective internal control
system in place to govern compliance with FTR and its own requirement to submit travel
vouchers within five business days after completion of a trip.

Status. With this report, OIG is closing prior audit “Sponsored Transactional Travel”
Recommendation One and modifying and reissuing it as Recommendation One and Two to
establish effective internal controls over submission of the travel sponsor vouchers.

   Current Recommendations One and Two. To improve Ex-Im Bank’s compliance with
   Federal Travel Regulation requirements to submit travel vouchers within five work
   days after the completion of a trip, the Office of Administration and Security should:

   1. Establish effective control activities over submission of the sponsored travel
      vouchers that ensure management’s directives are carried out. To include, clearly
      identifying the roles, responsibilities, and accountability of individual travelers,
      direct supervisors, SVPs, and of the Office of Administration and Security.

          a. Provide training to Ex-Im Bank employees over the roles, responsibilities,
             and accountability of individuals and the Office of Administration and
             Security.

   2. Establish reporting procedures over sponsored travel that allow for information to
      be communicated to management and others within the agency who need it and in a
      form and within a time frame that enables them to carry out their internal control
      and other responsibilities.


Prior Audit Recommendation Two and Three Were Implemented
The OIG recommended the following under recommendations two and three.

   (2) The OAS Director should establish a procedure to review travel authorizations for
       accuracy.

   (3) The Assistant Controller should establish procedures to review bills for accuracy
       prior to sending the bills to sponsors.

Background. The OIG made both recommendations because it found that Ex-Im Bank did
not receive the total reimbursement amount from the sponsor in four of the 39 sponsored
transactional trips that it reviewed.



                                 AUDIT REPORT OIG-AR-14-05
                              505050505
                                              25
                        EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


      Two of the cases had discrepancies between the amount billed and the amount that
       should have been billed.

      One case was not billed to the sponsor and Ex-Im Bank’s OCFO wrote off $1,780.

      One case was incorrectly classified as regular travel (non-sponsored) and OCFO
       never sent a bill. The amount of the reimbursable travel expense was $1,499.

Prior Management Response. Management concurred with the recommendations and
stated that OAS would enhance the current review and compliance procedures for this
process. Additionally, management stated that procedures would be established for the
Office of Controller within the OCFO to review all bills for accuracy prior to sending them to
sponsors.

Current Audit Results. We found from a statistical sample of 31 travel authorizations and
vouchers, OCFO properly billed all sponsors that were required to be billed, and Ex-Im
Bank collected the billed amounts from all sponsors that were required to be billed. The
results of the sample provided reasonable assurance that the procedures were effective
and functioning as intended.

Further, we found that OAS established an effective review process and procedure to
ensure that sponsored travel trips were authorized correctly. OAS used an automated
travel system – FAS-t – for the authorization, acceptance, and approval of sponsored trips.
FAS-t allowed all relevant officials to review all relevant information, such as travel
expense amounts and sponsor portion amounts, and approve the authorizations
electronically. In addition, the OCFO developed written internal procedures that provided
reasonable assurance that control activities were in place to accurately bill sponsors.

Status. We will close prior audit “Sponsored Transactional Travel” recommendation two
and three based on the audit results identified in this report, indicating that Ex-Im Bank
made improvements and took actions that met the intent of our prior recommendations.




                                  AUDIT REPORT OIG-AR-14-05
                               505050505
                                               26
                          EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                             APPENDIX A

Scope and Methodology
  We performed this audit from May 2013 through June 2013 and October 2013 through
  April 2014 in accordance with generally accepted government auditing standards. Those
  standards require that we plan and perform the audit to obtain sufficient, appropriate
  evidence to provide a reasonable basis for our findings and conclusions based on our audit
  findings. We believe that the evidence provides a reasonable basis for our findings and
  conclusions based on our objectives.

  Our objectives were to determine whether Ex-Im Bank complied with federal and agency
  regulations pertaining to sponsored travel and to evaluate the Bank’s processes and
  supporting documentation for approving and accepting sponsored travel requests, billing
  sponsors, and collecting reimbursements from sponsors. In addition, our objective was to
  follow-up on corrective actions implemented as a result of our previous audit report,
  “Sponsored Transactional Travel” (OIG-AR-10-04), June 4, 2010. To address our objectives,
  we reviewed applicable laws, regulations, and Ex-Im Bank policies and procedures; and
  applicable reports of external entities, such as GAO. We also statistically selected and
  reviewed a sample of 31 sponsored transactional travel authorizations out of 343
  sponsored transactional travel authorizations between January 2011 and April 2013 and a
  sample of 25 sponsored conference travel authorizations out of 89 sponsored conference
  travel authorizations between March 2011 and April 2013. We obtained the population of
  sponsored transactional and conference travel by using travel information maintained in
  FAS-t and provided by the OCIO.

  We statistically selected both samples using a confidence interval of 10 percent and a
  confidence level of 95 percent. However, due to the high variability of our testing results
  for travel vouchers submitted within five work days after completion of a trip, we adjusted
  the confidence interval to 17 percent and maintained a confidence level of 95 percent for
  the projection of the sample to the population for travel vouchers that were or were not
  submitted within five business days after completion of a trip. We coordinated with
  Econometrica Inc., our co-source, to identify both statiscal samples.

  To evaluate Ex-Im Bank’s overall travel sponsor program, we interviewed responsible
  officials from Ex-Im Bank’s OAS, OGC, and OCFO. In addition, we reviewed supporting
  travel acceptance and approval documentation maintained in FAS-t; supporting travel
  voucher documentation maintained by OAS; supporting billing and collection information
  maintained by the OCFO; and supporting documentation maintained by OGC. We also
  performed the following tasks:

        Evaluated Ex-Im Bank’s processes and procedures for approving, accepting, billing,
         and collecting payments from non-federal sources for sponsored travel.



                                    AUDIT REPORT OIG-AR-14-05
                                 505050505
                                                 27
                         EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


        Reviewed OIG’s prior audit report, “Sponsored Transactional Travel,” (OIG-AR-10-
         04), June 4, 2010, to identify previously reported opportunities for improvement
         and to follow-up on OIG’s prior audit recommendations.

        Developed a review checklist based on FTR requirements and Ex-Im Bank’s policies
         and procedures, and tested both samples and supporting documentation to
         determine whether Ex-Im Bank properly approved and accepted sponsored
         transactional and conference travel payments.

        Reviewed and tested the sample of 31 sponsored transactional payments out of a
         population of 343 sponsored transactional payments to determine whether OCFO
         properly billed sponsors. We examined travel vouchers, bills sent to sponsors, and
         supporting documentation, such as sponsor letter agreements, to determine the
         amounts that the sponsor agreed to pay and to verify that OCFO properly billed the
         sponsors. We did not test the sample of 25 sponsored conference payments because
         the process for billing sponsors for conference and transactional payments was the
         same and the work performed over sponsored transactional payments provided a
         reasonable basis to determine whether OCFO properly billed sponsors.

        Reviewed and tested the sample of 31 sponsored transactional payments out of a
         population of 343 sponsored transactional payments to determine whether Ex-Im
         Bank collected reimbursement for sponsored transactional travel expenses billed by
         OCFO. We examined OCFO accounting reports maintained in the AAA system to
         determine the amounts received by the sponsors. We did not test the sample of 25
         sponsored conference payments because the process for collecting reimbursements
         from sponsors was the same and the work performed over sponsored transactional
         payments provided a reasonable basis to determine whether OCFO collected
         reimbursements from sponsors.

        Reviewed the population of 89 sponsored conference travel payments obtained
         from FAS-t, and cross-checked the population with SF 326 reports submitted by OGC
         to OGE to determine whether OGC reported all required sponsored conference
         travel payments received from non-federal sources over $250, as required by FTR
         for only sponsored conference payments.


Review of Internal Controls
  We reviewed and evaluated the internal controls associated with Ex-Im Bank’s sponsor
  travel program to determine whether the Bank complied with federal and agency travel
  requirements and to follow-up on prior recommendations issued over the sponsor travel
  program. As discussed in the report, we found that Ex-Im Bank established adequate
  internal controls, but further internal control mechanisms are needed to ensure full
  compliance with federal and agency requirements and to resolve all prior audit findings
  over the sponsored travel program. In addition, we assessed controls associated with the
  approval, acceptance, billing and collection of payments from non-federal sponsors for


                                   AUDIT REPORT OIG-AR-14-05
                                505050505
                                                28
                          EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


  travel and related expenses. Our recommendations, if implemented, should correct the
  weaknesses we identified in the report.


Federal Laws, Regulations, Policies, and Guidance
  We reviewed the following during the course of our audit:

        USC Title 12 “Banks and Banking,” Chapter 6, “Export and Import Bank of the United
         States,” § 635 “Powers and functions of Bank.” (2013).

        USC Title 31 “Money and Finance,” Chapter 13, “Appropriations,” § 1353
         “Acceptance of Travel and Related Expenses from Non-Federal Sources” (2009).

        CFR Title 5 “Administrative Personnel,” Chapter 16 “Office of Government Ethics,” §
         2635 “Standards of Ethical Conduct for Employees of the Executive Branch”.

        CFR Title 41 “Public Contracts and Property Management,” Chapter 304, “Payment
         of Travel Expenses from a Non-Federal Source” (Federal Travel Regulation).

        CFR Title 12 “Banks and Banking,” Part 412, “Acceptance of Payment from a Non-
         Federal Source For Travel Expenses.”

        GAO, “Standards for Internal Control in the Federal Government,” (GAO/AIMD-00-
         21.3.1, November 1999).

        Office of Management and Budget Circular No. A-129, “Policies for Federal Credit
         Programs and Non-Tax Receivables,” Part IV, “Managing the Federal Government’s
         Receivables,” and Part V, “Delinquent Debt Collection,” January 2013 revision.

        OGE Memorandum DO-03-023, “Reporting Payments Accepted Under 31 U.S.C.
         § 1353,” November 18, 2003.

        Department of the Treasury’s Financial Management Service “Managing Federal
         Receivables,” May 2005.


Prior Coverage
  During the last five years, the Ex-Im Bank OIG issued one report of particular relevance to
  the subject of this report. Ex-Im Bank OIG issued “Sponsored Transactional Travel,” (OIG-
  AR-10-04, June 4, 2010). This report can be accessed over the Internet at
  http://www.exim.gov/oig/reports/audits-and-evaluations.cfm. GAO did not issue any
  reports of particular relevance to the subject of this report.




                                    AUDIT REPORT OIG-AR-14-05
                                 505050505
                                                 29
                              EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                                 APPENDIX B

Ex-Im Bank’s Approval Process for Sponsored Travel
Authorizations

Employee Division                                         OAS                           OGC

 Ex-Im Employee                              FAS-t automatically notifies
 receives an invitation for                  OAS of employee authorization
 sponsored travel from                       request.
 non-federal source.




                                             OAS Travel Specialist reviews
                                             authorization and verifies per
                                             diem and itinerary. Approves
                                             Authorization. Sends to OAS
                                             Budget Specialist.

 Employee initiates
 travel authorization in
 FAS-t and indicates
 sponsored travel.                           OAS Budget Specialist verifies
                                             funds are available within the
                                             employee’s travel budget.
                                             Obligates funds in AAA.
                                             Approves Authorization. Sends
                                             to SVP of employee’s division.




 SVP of employee’s                            OAS Director reviews and
 department approves                          makes final approval for
 authorization. Sends to                      sponsored trip after verifying
 OGC for final review.                        all approvals were received
                                              and documentation                  OGC reviews trip for
                                              maintained.                        potential conflict of
                                                                                 interest and verifies
                                                                                 sponsor offered
                                                                                 payment of travel
                                                                                 expenses.




                                        AUDIT REPORT OIG-AR-14-05
                                     505050505
                                                     30
                  EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                     APPENDIX C

Ex-Im Bank’s Travel Request Form Using FAS-t




                            AUDIT REPORT OIG-AR-14-05
                         505050505
                                         31
                            EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                                            APPENDIX
                                                                                             PPENDIX D
                                                                                                     C

Ex-Im Bank’s Billing and Collection Process
                Employee completes a sponsored trip and prepares a travel voucher for
                reimbursement of travel expenses.



                Employee’s Immediate Supervisor reviews and approves the travel
                voucher and supporting documentation.



                OAS Travel Specialist reviews the travel voucher and enters an invoice
                amount in the AAA. Manually delivers the travel voucher and supporting
                documentation to the OCFO.



                OCFO Payment Certifier certifies payment and prints a payment voucher.



                OCFO Cash Control pays traveler from Ex-Im funds. Travel voucher and
                supporting documentation are sent to PAS to bill the sponsor.




                PAS official reviews travel voucher and supporting documentation to verify
                the sponsor billing amount. PAS official will verify sponsored billing
                amounts with traveler or OAS, as needed. PAS official sends bill to sponsor.



                PAS official monitors bills on a bi-weekly basis and resends bills to the
                sponsor until paid.


                           Yes                                                    No
                                                  Bill Paid?



   OCFO applies payment and offsets obligated                  If payment not received within six months,
   funds within the employee’s division.                       OCFO writes off the sponsor receivable and
                                                               charges the employee’s division.


                                                               If payment not received in full, OCFO will
                                                               continue billing efforts or charge the
                                                               employee’s division for the short amount.



                                        AUDIT REPORT OIG-AR-14-05
                                     505050505
                                                      32
                  EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                     APPENDIX E

Form EXB-2011-1, “Request for Reimbursement of Actual Expenses”




                            AUDIT REPORT OIG-AR-14-05
                         505050505
                                         33
                   EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                         APPENDIX F

OGC Reporting Process to OGE for Sponsored Conference Payments

                 OGC sends a request to OCIO to provide a list of all
                 sponsored conference payments taken by employees
                 during an OGE reporting period.



                 OCIO queries all sponsored conference travel
                 payments authorized in FAS-t for the designated
                 reporting period and provides a list to OGC.



                 OGC receives list from OCIO and identifies all travel
                 payments for sponsored conference travel over $250.




                 OGC contacts all travelers receiving a payment over
                 $250 for sponsored conference trips to provide an
                 itemization of sponsor payments, including costs for
                 meals, flight, hotel, etc.




                 OGC updates SF 326 with all relevant information and
                 an OGC supervisor approves SF 326.



                 OGC sends SF 326 report to OGE before the
                 semiannual reporting deadline.




                             AUDIT REPORT OIG-AR-14-05
                          505050505
                                           34
             EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                A PPENDIX G
                                                                APPENDIX  F

Management Comments




                       AUDIT REPORT OIG-AR-14-05
                    505050505
                                    35
EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




          AUDIT REPORT OIG-AR-14-05
       505050505
                       36
                          EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Acknowledgements
  Key contributors to this report were Arturo Cornejo, Acting Assistant Inspector General for
    Audits, Mike Rivera, Lead Auditor, Patricia Gillespie, Auditor, and John Onyeaku, Auditor.


To Report Fraud, Waste, or Abuse, Please Contact:
  E-mail:              IGhotline@exim.gov

  Telephone:           1-888-OIG-EXIM (1-888-644-3946)

  Fax:                 (202) 565-3988

  Address:             Office of Inspector General
                       Export-Import Bank of the United States
                       811 Vermont Avenue, NW
                       Suite 138
                       Washington, DC 20571


Comments and Suggestions
  If you wish to comment on the quality or usefulness of this report or suggest ideas for
  future audits, please contact Arturo Cornejo, Acting Assistant Inspector General for Audits,
  at Arturo.Cornejo@exim.gov or call (202) 565-3908. Comments, suggestions, and requests
  can also be mailed to the attention of the Assistant Inspector General for Audits at the
  address listed above.




                                    AUDIT REPORT OIG-AR-14-05
                                 505050505
                                                 37
Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig
